2311 Douglas Street CA ee B-Mailixadvess:
Omaha, Nebraska 68102-1214 Leg al B ; iefs

contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 21-12

FEDERAL ELECTION COMMISSION,
Appellant,
v.
TED CRUZ FOR SENATE and
SENATOR RAFAEL EDWARD “TED” CRUZ,
Appellees.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF OF CAMPAIGN
LEGAL CENTER AS AMICUS CURIAE IN SUPPORT OF APPELLANT in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief

contains 5451 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d). as

needed.

Subscribed and sworn to before me this 6th day of August. 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v
i RENEE J. GOSS ( des Pe - 2h B Z
ol hewn My Comm, Exp. September 5, 2023 *

Notary Public Affiant

 

 

41296
